IN THE

SUPREME COURT OF THE UNITED STATES

WashineTon b,C
THERESA A. LO LOGA/— PETITIONER

(Your Name)

vs.
ows! OF WINOSOR ETAL. responventis)
PROOF OF SERVICE

I, HER, SA 2 O G , do swear or declare that on this date,

. 22k as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:

TOWN OF WINDSOR, MEW YYRIK [2K05 aI
MEW YORK VQUNICL (BL RECIPROCAL Wsy awe CO

ROBERT BRINKS-TRUCK DRIVER + GREGG STO Ry -WiNGm AW
ATTORMEY S, BOU a k+ UBL has < HAVE THEE Ar) DRESS ES

I declare under penalty‘of perjury that the foregoing is true and correct.

Executed on July 0 Af y
Yori hh Aion
(Signature)
